No. ______
In the

Supreme Court of the United States
__________________
HAROLD A. FLORES,
Petitioner,
v.
ENTERGY NUCLEAR OPERATIONS, INC.,
Respondent.
__________________
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit
__________________
PETITION FOR WRIT OF CERTIORARI
__________________

Michael Confusione
Counsel of Record
HEGGE & CONFUSIONE, LLC
P.O. Box 366
Mullica Hill, NJ 08062-0366
(800) 790-1550; (888) 963-8864 (fax)
mc@heggelaw.com
Counsel for Petitioner,
Harold A. Flores

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
Question Presented
What quantum of evidence is sufficient to survive
summary judgment on a Title VII retaliation claim –
here, that defendant Entergy retaliated against its
employee, plaintiff Flores, for supporting a colleague’s
racial discrimination claim?

ii
Parties to the Proceedings
Petitioner Harold A. Flores was the plaintiff in the
United States District Court and the appellant in the
United States Court of Appeals. Respondent Entergy
was the defendant in the District Court and the
appellee in the Court of Appeals. Wayne Griffin and
Daniel Gagnon were defendants in the District Court.
Statement of Related Proceedings
• Flores v. Entergy Nuclear Operations, Inc., No.
18-1936 (2d Cir.) (Summary Order issued May
28, 2019; mandate issued June 18, 2019)
• Flores v. Entergy Nuclear Operations, Inc., No.
16-CV-7207 (CS) (S.D. N.Y.) (Opinion and Order
issued May 31, 2018; final judgment entered
May 31, 2018)
There are no additional proceedings in any court
that are directly related to this case.

iii
Table of Contents
Question Presented . . . . . . . . . . . . . . . . . . . . . . . . . . i
Parties to the Proceedings . . . . . . . . . . . . . . . . . . . . . ii
Statement of Related Proceedings. . . . . . . . . . . . . . . ii
Table of Authorities . . . . . . . . . . . . . . . . . . . . . . . . . iv
Petition for a Writ of Certiorari. . . . . . . . . . . . . . . . . 1
Opinions Below. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Jurisdiction. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Constitutional and
Statutory Provisions Involved . . . . . . . . . . . . . . . 1
Statement of the Case . . . . . . . . . . . . . . . . . . . . . . . . 2
Reasons for Granting the Petition. . . . . . . . . . . . . . . 8
Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Appendix
Appendix A Summary Order in the United States
Court of Appeals for the Second
Circuit
(May 28, 2019) . . . . . . . . . . . . . . . App. 1
Appendix B Opinion and Order in the United
States District Court, Southern
District of New York
(May 31, 2018) . . . . . . . . . . . . . . . App. 8

iv
Table of Authorities
CASES
Adickes v. S. H. Kress & Co.,
398 U.S. 144, 90 S. Ct. 1598, 26 L. Ed. 2d 142
(1970). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 106 S. Ct. 2505, 91 L. Ed. 2d 202
(1986). . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9, 14, 15
Burlington N. & Santa Fe Ry. Co. v. White,
548 U.S. 53, 126 S. Ct. 2405, 165 L. Ed. 2d 345
(2006). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 13
Cosgrove v. Sears, Roebuck & Co.,
9 F.3d 1033 (2d Cir. 1993) . . . . . . . . . . . . . . . . . . 7
Crawford v. Metro. Gov’t of Nashville & Davidson
Cty., Tenn.,
555 U.S. 271, 129 S. Ct. 846, 172 L. Ed. 2d 650
(2009). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Gorman-Bakos v. Cornell Co-op Extension of
Schenectady Cty.,
252 F.3d 545 (2d Cir. 2001) . . . . . . . . . . . . . . . . 11
Graziadio v. Culinary Inst. of Am.,
817 F.3d 415 (2d Cir. 2016) . . . . . . . . . . . . . . . . 12
Kennedy v. Silas Mason Co.,
334 U.S. 249, 68 S. Ct. 1031, 92 L. Ed. 1347
(1948). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Mitchell v. Robert DeMario Jewelry, Inc.,
361 U.S. 288, 80 S. Ct. 332, 4 L. Ed. 2d 323
(1960). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

v
Nat’l R.R. Passenger Corp. v. Morgan,
536 U.S. 101, 122 S. Ct. 2061, 153 L. Ed. 2d 106
(2002). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9, 10
Redd v. New York Div. of Parole,
678 F.3d 166 (2d Cir. 2012) . . . . . . . . . . . . . . . . 10
Reeves v. Sanderson Plumbing Prod., Inc.,
530 U.S. 133, 120 S. Ct. 2097, 147 L. Ed. 2d 105
(2000). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Univ. of Texas Sw. Med. Ctr. v. Nassar,
570 U.S. 338, 133 S. Ct. 2517, 186 L. Ed. 2d 503
(2013). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Vale v. Great Neck Water Pollution Control Dist.,
80 F. Supp. 3d (E.D.N.Y. 2015) . . . . . . . . . . . . . 13
STATUTES
42 U.S.C. § 2000e, et seq . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C.A. § 1254 (West) . . . . . . . . . . . . . . . . . . . . . 1
42 U.S.C. § 2000e-3 (West) . . . . . . . . . . . . . . . . . . . . 2
42 U.S.C. § 2000e-5(e)(1) . . . . . . . . . . . . . . . . . . . . . 10
42 U.S.C. § 2201a . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

1
Petition for a Writ of Certiorari
Harold A. Flores petitions this Court for a writ of
certiorari to review the Orders and Decisions of the
Court of Appeals and District Court.
Opinions Below
The May 28, 2019 Summary Order of the United
States Court of Appeals for the Second Circuit is
unpublished and appears at Appendix A. The May 31,
2018 Decision of the United States District Court for
the Southern District of New York is unpublished and
appears at Appendix B.
Jurisdiction
The Summary Order of the United States Court of
Appeals was entered on May 28, 2019. (Appendix A).
This Court’s jurisdiction is invoked under 28 U.S.C.A.
§ 1254 (West).
Constitutional and
Statutory Provisions Involved
“It shall be an unlawful employment practice for an
employer to discriminate against any of his employees
or applicants for employment, for an employment
agency, or joint labor-management committee
controlling apprenticeship or other training or
retraining, including on-the-job training programs, to
discriminate against any individual, or for a labor
organization to discriminate against any member
thereof or applicant for membership, because he has
opposed any practice made an unlawful employment
practice by this subchapter, or because he has made a

2
charge, testified, assisted, or participated in any
manner in an investigation, proceeding, or hearing
under this subchapter.” 42 U.S.C.A. § 2000e-3 (West).
Statement of the Case
Since 2005, plaintiff has been employed (except for
a short break in employment from May 2013 to October
2014) as an armed Nuclear Security Officer (“NSO”) at
Indian Point Energy Center (“IPEC”), operated by
defendant Entergy.
Plaintiff’s employment with defendant was
satisfactory until May 2013, when plaintiff, who is
African-American and Hispanic, submitted an affidavit
in support of a fellow African-American employee’s
then-pending racial discrimination lawsuit against
their common employer. Plaintiff submitted the
Affidavit on or about May 13, 2013. Entergy fired him
three days later (claiming that plaintiff’s termination
was already in process beforehand).
This resulted in a Union-filed grievance on
plaintiff’s behalf and subsequent settlement agreement
reinstating plaintiff’s employment. In his verified
Charge of Discrimination then in his Complaint filed in
the District court, plaintiff charged that Entergy fired
him and took other retaliatory actions in violation of
Title VII of the Civil Rights Act of 1964 (“Title VII”), 42
U.S.C. § 2000e, et seq. “Entergy induced Plaintiff to
waive his right to seek recovery of back wages as a
result of his unlawful termination by falsely
representing that a New York State Pistol License was
required to perform the duties and responsibilities of
the position of Nuclear Safety Officer. Entergy falsely

3
and misleadingly induced Plaintiff to waive his right to
reimbursement for back wages. Plaintiff entered into
the Agreement based on Entergy’s false and misleading
representations that he was required to obtain a New
York State Pistol License in order to be employed as a
Nuclear Security Officer at IPEC. At the time that
Entergy entered into the Agreement, Nuclear Security
Officers were not required to possess a New York State
Pistol License in order to lawfully possess and/or use
firearms in the course of their duties – a fact known to
Entergy.” Certainly by August 2014 when Entergy
started issuing preemption cards, “a pistol license was
not required for Indian Point Nuclear Security Officers
to possess or use firearms in the course of their duties.”
Ultimately, plaintiff was forced to incur the expense
of retaining an attorney to apply to a judge to facilitate
his reinstatement of employment at Entergy. Yet,
upon plaintiff’s return to employment in October 2014,
defendant’s retaliatory practices against plaintiff
continued. Plaintiff had been arrested in April 2013 for
misdemeanor possession of a controlled dangerous
substance. The charge was ultimately dismissed in its
entirety. Yet Entergy required plaintiff to submit to
continuous drug tests despite the dismissal of the
charge and despite plaintiff’s consistently negative
drug test results. Entergy also required Plaintiff to
“engage in a psycho-educational program,” “show
documented compliance weekly, and “[attend] the
intensified random follow-up testing program over the
next three years…” Entergy “continued to require
Plaintiff to submit to drug testing … for a charge that
was dismissed in its entirety,” plaintiff affirmed, in
continued retaliation and discrimination. “Since

4
October 2014, Plaintiff has submitted to numerous
drug tests as required by Entergy and carried out at
the direction of Defendants Griffin and Gagnon. Each
of Plaintiff’s drug tests has been negative for the
presence of drugs. Entergy, through Defendant Griffin,
has never rescinded the requirement that Plaintiff
regularly submit to drug testing.”
This resulted in plaintiff being perceived, falsely, as
a drug addict, and continued adverse actions against
plaintiff by his supervisors and co-workers: “Because of
Entergy’s treatment, through Defendants Griffin and
Gagnon, as Plaintiff’s co-workers call him names and
make comments characterizing him as being a drug
addict and/or alcoholic.” This happened “more than a
hundred times,” plaintiff affirmed. Being called a drug
addict by co-workers “bothered” plaintiff.
This
happened in the “locker room” and “gun room” (among
other places). As plaintiff affirmed, “I was reinstated
to my position in the Security Department in October
2014. On October 9, 2014, Entergy continued its
retaliation against me and required that I ‘engage in
psycho-educational program•••show documented
compliance weekly...[attend] the intensified random
follow up testing program over the next three years’ …
for an arrest involving a charge that was dismissed in
its entirety. I had been drug tested by Entergy within
1 week of the arrest, which results were negative. I
have been harassed and retaliated against by being
subjected to numerous urinalysis tests, the results of
which have all been negative for the presence of alcohol
or drugs. The unwarranted urinalysis tests arc
requested in front of my peers, I have been teased and
harassed by my peers who call me names and make

5
comments characterizing me as being a drug addict
and/or alcoholic, causing harm to my reputation,”
plaintiff affirmed in his submissions.
Plaintiff charged that defendant’s continued
requirement that he submit to routine drug testing was
in retaliation for his protected activity of having
submitted the affidavit in support of his co-worker’s
race discrimination claim. “Entergy’s repeated Fact
Findings against Plaintiff are in retaliation for his
having engaged in protected activity.”
Other
retaliatory actions against plaintiff included
“rescheduling the date for his mandatory physical
examination for a time when they knew that Plaintiff
was away on vacation”; unreasonably delaying
“Plaintiff’s mandatory requalification test alleging that
‘management was not available’ to administer the test;
“punitively reassigning” Plaintiff to the day shift from
his permanently scheduled night shift; refusing to
provide documentation to Plaintiff that was provided to
every other Security Officer in and around August 2014
that allegedly eliminated the purported requirement
that Nuclear Security Officers possess a New York
State Pistol License; imposing a three day without pay
suspension “in retaliation for his protected activities”;
and refusing to allow Plaintiff to use accrued time off
in continued retaliation for his protected activities,
while simultaneously permitting 8 other Security Force
employees such call out. A448-449. As plaintiff
affirmed, “Entergy is aware of the harassing
atmosphere - and the fact that there was no basis for
requiring the tests in the first instance. All of the test
results have been negative. Entergy continues to
require the urinalysis testing with the intention to

6
facilitate harassment in the workplace by my peers and
retaliate against me because of my protected activity.”
The Rulings Below
The District court ruled (Appendix B) that “allegedly
retaliatory events occurring before June 17, 2015” were
not timely and would be disregarded in assessing the
claim. Thus, though plaintiff identified in his summary
judgment opposition several retaliatory acts taken
against him, the court considered only four of them,
then ruled that “Plaintiff cannot sustain a retaliation
claim based on” these four actions. “First, Plaintiff
cannot demonstrate a causal connection between his
protected activity and any adverse employment action.”
“Second, … Defendant has articulated legitimate nonretaliatory reasons for Plaintiff’s fact findings and
suspension: Plaintiff’s unscheduled absences and
failure to follow Defendant’s policy… Plaintiff, in
response, makes no attempt to show that the reasons
offered for the fact findings and suspension were a
pretext for retaliation. A jury could not reasonably find
on this record that retaliation was a motivating factor
in Defendant’s employment decisions. Thus, Plaintiff’s
retaliation claim is dismissed.”
The Court of Appeals affirmed (Appendix 1), ruling
that the District court properly excluded consideration
of prior discriminatory acts: “‘Flores argues that the
statutory limitations do not apply because the pre-June
17, 2015 acts are “part of the overall retaliation and
discrimination charge.’ We disagree. As we have
previously explained, the ‘continuing violation
exception’ applies only where a plaintiff alleges an
‘ongoing policy’ of related discrimination, rather than

7
cases of ‘discrete acts of discrimination or retaliation
that occur outside the statutory time period, even if
other acts of discrimination occurred within the
statutory time period.’ … Here, Flores has provided no
evidence that the allegedly retaliatory acts were part of
such an ongoing policy.” The Court ruled that a
reasonable jury could not find in plaintiff’s favor on his
retaliation (or ADA discrimination) claim:
… as we have already explained, claims based
on adverse employment actions that occurred
before June 17, 2015 (including Flores’s
temporary 2013 termination) are barred by the
relevant limitations period. Moreover, any
inference of retaliation based on the proximity of
Flores’s submission and his termination is
undermined by undisputed evidence that the
termination decision preceded Flores’s protected
activity, App’x 394-97, and was based on a
substantial disciplinary record, App’x 80-90,
347-391. Moreover, this 2013 termination is the
only adverse employment action for which Flores
advances any argument (rather than a
conclusory statement) of a “causal connection” to
a protected activity. Accordingly, Flores has
failed to establish a prima facie case of
retaliation under Title VII. Cosgrove v. Sears,
Roebuck & Co., 9 F.3d 1033, 1039 (2d Cir. 1993).
[Appendix A]

8
Reasons for Granting the Petition
The Court should clarify for lower federal courts the
quantum of evidence sufficient to survive summary
judgment in a Title VII retaliation case. As this Court
has stressed, antiretaliation provisions seek to
“prevent[] an employer from interfering ... with an
employee’s efforts to secure or advance enforcement of
[antidiscrimination] guarantees.” Univ. of Texas Sw.
Med. Ctr. v. Nassar, 570 U.S. 338, 367–68, 133 S. Ct.
2517, 186 L. Ed. 2d 503 (2013). “Title VII depends for
its enforcement upon the cooperation of employees who
are willing to file complaints and act as witnesses.”
Burlington N. & Santa Fe Ry. Co. v. White, 548 U.S.
53, 126 S. Ct. 2405, 165 L. Ed. 2d 345 (2006); Mitchell
v. Robert DeMario Jewelry, Inc., 361 U.S. 288, 292, 80
S. Ct. 332, 4 L. Ed. 2d 323 (1960); Crawford v. Metro.
Gov't of Nashville & Davidson Cty., Tenn., 555 U.S.
271, 279, 129 S. Ct. 846, 172 L. Ed. 2d 650 (2009).
Here, the summary judgment record permits a
reasonable jury to find that defendant took adverse
employment actions against its employee, Mr. Flores,
in retaliation for supporting his co-employee’s racial
discrimination lawsuit against their employer, and that
defendant continued taking adverse actions against
plaintiff under the guise of labeling plaintiff a drug
addict or alcoholic. A jury viewing the record can reject
the employer’s proffered non-discriminatory reasons for
its actions and find, at trial, that Entergy took the
actions in retaliation for plaintiff’s activity protected by
Title VII.
The lower courts’ decisions in this case illustrate the
growing problem with the overuse of summary

9
judgment dismissals in federal discrimination cases.
Lower courts are not adhering to the limited role of the
judge on a summary judgment motion. As this Court
has said, summary judgment “by no means authorizes
trial on affidavits. Credibility determinations, the
weighing of the evidence, and the drawing of legitimate
inferences from the facts are jury functions, not those
of a judge, whether he is ruling on a motion for
summary judgment or for a directed verdict. The
evidence of the non-movant is to be believed, and all
justifiable inferences are to be drawn in his favor.
Adickes v. S. H. Kress & Co., 398 U.S. 144, 158–159, 90
S. Ct. 1598, 1608–1609, 26 L. Ed. 2d 142 (1970).
Neither do we suggest that the trial courts should act
other than with caution in granting summary judgment
or that the trial court may not deny summary
judgment in a case where there is reason to believe
that the better course would be to proceed to a full
trial. Kennedy v. Silas Mason Co., 334 U.S. 249, 68 S.
Ct. 1031, 92 L. Ed. 1347 (1948).” Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 255, 106 S. Ct. 2505, 91 L.
Ed. 2d 202 (1986).
In Mr. Flores’ case, the lower courts, as lower courts
have done increasingly in the thirty years since
Anderson, ignored this Court’s directive to proceed
“with caution in granting summary judgment.” The
lower courts, first, limited the acts they would even
consider in assessing the sufficiency of Mr. Flores’
retaliation claim. As this Court has said, hostile work
environment claims are “composed of a series of
separate acts that collectively constitute one ‘unlawful
employment practice.’” Nat’l R.R. Passenger Corp. v.
Morgan, 536 U.S. 101, 117, 122 S. Ct. 2061, 153 L. Ed.

10
2d 106 (2002) (quoting 42 U.S.C. § 2000e-5(e)(1)). A
court may consider all of the acts that allegedly
constitute the “unlawful employment practice” as long
as at least one such act occurred within the 300-day
time period. Id. National R.R. Passenger Corp., 536
U.S. 101. Mr. Flores’ EEOC complaint detailed
allegations of pre-July 1, 2015 retaliatory acts that
occurred as early as May 2013, beginning with the
termination of his employment and continuing with
Entergy’s refusal to reemploy him in July 2014 despite
the absence of a requirement for a pistol license to
perform the duties of the position. The 2013-2014
retaliatory acts that plaintiff detailed in his filings are
reasonably related to and part of the overall retaliation
and discrimination charge that plaintiff lodged against
his employer. Though the events in 2013 and 2014
occurred outside of the 300-day time period preceding
the filing of the EEOC complaint, the acts of retaliation
that plaintiff detailed were of the same nature as those
within the 300-day time period; the conduct complained
of in both the EEOC complaint and the federal
complaint alleges an ongoing retaliatory course of
conduct by the employer such that any investigation
conducted by the EEOC would necessarily have
included acts prior to July 1, 2015 because they were
reasonably related to plaintiff’s overall charge of
retaliation and, relatedly, discrimination. These
retaliatory acts should thus have been considered in
assessing the summary judgment motion. This Court
should clarify that the lower courts erred in
disregarding this evidence in Mr. Flores’ case. See,
e.g., Redd v. New York Div. of Parole, 678 F.3d 166,
176 (2d Cir. 2012) (stressing that in employment
discrimination cases courts should evaluate facts

11
holistically rather than “view individual incidents in
isolation” or in “piecemeal fashion”).
The lower courts disregarded what a reasonable
jury viewing the evidence in Mr. Flores’ case can find.
The District court said that plaintiff’s claim failed
because “Plaintiff cannot demonstrate a causal
connection between his protected activity and any
adverse employment action” and a reasonable jury
cannot find that defendant’s proffered reasons for its
actions “were a pretext for retaliation.” But plaintiff
was terminated three days after submitting the
affidavit in support of the fellow African-American
employee’s then-pending racial discrimination lawsuit
against defendant Entergy. A reasonable jury can
reject defendant’s proffered explanation that this was
already in process and find a causal connection because
of the close timing, this Court should clarify. See, e.g.,
Gorman-Bakos v. Cornell Co-op Extension of
Schenectady Cty., 252 F.3d 545, 554 (2d Cir. 2001)
(plaintiff can indirectly establish a causal connection to
support a discrimination or retaliation claim by
showing that the protected activity was closely followed
in time by the adverse employment action.”)
The District court said, “Defendant has articulated
legitimate non-retaliatory reasons for Plaintiff’s fact
findings and suspension: Plaintiff’s unscheduled
absences and failure to follow Defendant’s policy… A
jury could not reasonably find on this record that
retaliation was a motivating factor in Defendant’s
employment decisions.” This Court should clarify that
a plaintiff “may prove ... retaliation ... by
demonstrating weaknesses, implausibilities,

12
inconsistencies, or contradictions in the employer's
proffered legitimate, nonretaliatory reasons for its
action. From such discrepancies, a reasonable juror
could conclude that the explanations were a pretext for
a prohibited reason.” Graziadio v. Culinary Inst. of
Am., 817 F.3d 415, 430 (2d Cir. 2016); see Reeves v.
Sanderson Plumbing Prod., Inc., 530 U.S. 133, 147, 120
S. Ct. 2097, 147 L. Ed. 2d 105 (2000) (“Proof that the
defendant's explanation is unworthy of credence is ...
one form of circumstantial evidence that is probative of
intentional discrimination, and it may be quite
persuasive.”) As Mr. Flores’ affirmed, Entergy knew
that the pistol license was not a job requirement in
light of the fact that NRC regulations for nuclear
security personnel preempted New York State firearms
licensing laws. Entergy did not require its Nuclear
Security Officers to obtain pistol permits to perform
their job duties. Indian Point Energy Center “obtained
[NRC] authorization to use Section 161A preemption
authority under 42 U.S.C. 2201a to expressly authorize
Security Officers to carry weapons pursuant to their
official duties at the Indian Point Energy Center. The
authorization preempts local and state law pertaining
to possession of these weapons.”
Entergy’s
requirement, for purposes of reemployment, that
plaintiff obtain a New York State pistol license was
illusory.
A jury can find that plaintiff was retaliated against
by way of the January 2014 settlement as well,
whereby Entergy falsely induced plaintiff to waive all
legal claims to back pay in exchange for reinstatement
of his employment under the condition that he obtain
his New York State pistol license on or before July 1,

13
2014. Adverse employment action is broader for
retaliation claims, this Court should clarify. See, e.g.,
Vale v. Great Neck Water Pollution Control Dist., 80 F.
Supp. 3d 426, 439 (E.D.N.Y. 2015) (“Unlike claims of
discrimination, which limit what qualifies as an
‘adverse employment action’ to changes in the terms
and conditions of employment, adverse employment
actions in the context of a claim of retaliation are much
broader”); Burlington Northern and Santa Fe Ry. Co.,
548 U.S. at 68–69.
The drug tests and psychological “education” that
Entergy continually forced plaintiff to undergo were
part of the retaliation, too, a jury can find. The
summary judgment record shows that upon plaintiff’s
return to employment in October 2014 (following the
settlement of the grievance), defendant’s
discriminatory practices continued. Plaintiff had been
arrested in April 2013 for misdemeanor possession of
a controlled dangerous substance. The charge was
ultimately dismissed in its entirety. Yet Entergy
required plaintiff to submit to continuous drug tests
despite the dismissal of the charge and despite
consistently negative results. Entergy also required
Plaintiff to “engage in a psycho-educational program,”
“show documented compliance weekly, and attend
“intensified random follow-up testing program over the
next three years…” A jury can find that defendant’s
continued insistence that Plaintiff submit to drug
testing and “education” was in retaliation for his
protected activity of having submitted the affidavit in
support of his co-worker’s race discrimination claim.
As plaintiff affirmed in his filings below, Entergy’s
continued insistence that plaintiff submit to drug-

14
testing, counseling and other onerous requirements of
his employment “caused harm to Plaintiff’s personal
and professional reputation” at his employment.
Though Entergy affirmed and the District court said
that any adverse actions against plaintiff were because
of his “unscheduled absences and failure to follow
Defendant’s policy,” the jury could reject this proffered
rationale viewing the evidence. This Court should
clarify that per Anderson’s cautionary standard for
grant of summary judgment and the importance of
Title VII protections, the lower courts erred in
removing Mr. Flores’ case from the jury. The jury
would consider the evidence showing the timing
between plaintiff’s signing of the Affidavit in support
his co-employee’s racial discrimination lawsuit and
defendant’s termination of plaintiff three days later.
The jury would consider that plaintiff’s employment
with defendant was satisfactory until he signed the
Affidavit in support of his co-employee’s race
discrimination suit. The jury would consider the
subsequent actions that Entergy took against plaintiff
in inducing “Plaintiff to waive his right to seek recovery
of back wages as a result of his unlawful termination
by falsely representing that a New York State Pistol
License was required to perform the duties and
responsibilities of the position of Nuclear Safety
Officer.” The jury would consider whether defendant
used plaintiff’s arrest in April 2013 for misdemeanor
possession of a controlled dangerous substance (a
charge that was dismissed) as a vehicle to continue to
discriminate against plaintiff in retaliation for his
protected Title VII actions. The Court should grant
this Petition and clarify that the lower courts

15
misapplied this Court’s Title VII precedent, violated
Mr. Flores’ federal statutory rights, and misapplied the
cautionary summary judgment standard prescribed in
Anderson, by dismissing what a reasonable jury can
find were actions by his employer that violated Mr.
Flores’ protected federal rights.
Conclusion
For the foregoing reasons, the Court should grant
this Petition for a Writ of Certiorari.
Respectfully submitted,
Michael Confusione
Counsel of Record
HEGGE & CONFUSIONE, LLC
P.O. Box 366
Mullica Hill, NJ 08062-0366
(800) 790-1550; (888) 963-8864 (fax)
mc@heggelaw.com
Counsel for Petitioner, Harold A. Flores
Dated: August 26, 2019

